 OFFICE OF INSPECTOR GENERAL

                    Audit Report


Audit of Railroad Medicare Ambulance Charges


       This abstract summarizes the results of the subject audit. The

       full report includes information protected from disclosure and

       has been designated for limited distribution pursuant to

       5 U.S.C. § 552





                       Report No. 13-06

                        March 29, 2013





   RAILROAD RETIREMENT BOARD

                                REPORT ABSTRACT 

                  Audit of Railroad Medicare Ambulance Charges
 

The Railroad Retirement Board (RRB), Office of Inspector General (OIG) conducted an
audit of Railroad Medicare ambulance charges. Since April 2000, the RRB has
contracted with its nationwide contractor Palmetto GBA, LLC (Palmetto) to process the
Medicare Part B claims for Qualified Railroad Retirement Beneficiaries. As of
September 28, 2012, Palmetto was awarded contract responsibilities as the Railroad
Specialty Medicare Administrative Contractor.

The objective of the audit was to determine if adequate controls are in place to ensure
the medical review of Railroad Medicare ambulance charges in accordance with
Medicare’s coverage requirements.

The RRB-OIG identified the following weaknesses:

   	 Charges for Railroad Medicare ambulance services were not always subject to
      medical prepayment review;
   	 Palmetto’s medical review strategy requires further implementation and 

      development; and 

   	 Palmetto’s provider education efforts have not effectively deterred medically
      unnecessary ambulance services.

To address the identified weaknesses, we recommend that RRB officials perform
additional oversight monitoring activities and conduct periodic reviews to ensure that:

   	 Palmetto establishes an efficient means of widely addressing the volume 

      workload of Railroad Medicare ambulance services to identify potentially 

      improper or fraudulent payments utilizing medical prepayment reviews, 

      post-payment reviews, and statistical analysis to maximize and expedite 

      recoupment; 

   	 Palmetto revises its medical review strategy to include a risk assessment
      identifying high risk providers and their error rates; a quantified universe of
      Railroad Medicare ambulance claims, services, and dollars-at-risk; and the
      utilization of increased data analysis and statistical sampling techniques; and
   	 Palmetto administers progressive corrective action to Railroad Medicare
      providers in accordance with Centers for Medicare and Medicaid Services
      requirements. These contractor actions include identifying and directly
      addressing those high risk providers that abuse the system; and issuing timely
      referrals describing the abuse to those Medicare entities impacted.

The Office of Programs concurred with six of our recommendations and rejected four of
our recommendations. However, the Office of Programs stated that Palmetto is
planning corrective action on three of the four rejected recommendations.
